           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      CONTROLS OVER OLD-AGE,
     SURVIVORS, AND DISABILITY
      INSURANCE REPLACEMENT
             CHECKS

    May 2006      A-02-05-15080




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   May 31, 2006                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls Over Old-Age, Survivors, and Disability Insurance Replacement
        Checks (A-02-05-15080)


        OBJECTIVE
        Our objective was to determine the effectiveness of the Social Security Administration’s
        (SSA) controls over the Old-Age, Survivors, and Disability Insurance (OASDI)
        replacement check process for beneficiaries who had previously negotiated multiple
        monthly benefit checks.

        BACKGROUND

        When a beneficiary or representative payee reports to SSA that he or she did not
        receive an OASDI benefit check, a replacement check can be provided. The cashing of
        both an original and replacement check for the same month by the same beneficiary is
        referred to as a double check negotiation (DCN). 1 Usually, when a beneficiary or a
        representative payee reports that a check was not received, a replacement check is
        issued before the status of the original check is known. If the beneficiary had a DCN
        within the last 24 months, and the beneficiary either claimed forgery unsuccessfully or
        did not make a forgery claim, SSA should not issue a replacement check until the status
        of the original check is known.

        To meet our objective, we obtained a file of 8,497 beneficiaries with 2 or more duplicate-
        check events recorded on SSA’s Payment History Update System (PHUS) between
        October 2001 and May 2004. From this population, we focused on beneficiaries who
        had three or more DCNs. We sampled 100 beneficiaries with 3 or 4 DCNs and 50
        beneficiaries with 5 or more DCNs. We compared the overpayments identified on the
        PHUS to overpayments posted on SSA’s Recovery of Overpayments Accounting and
        Reporting (ROAR) system and noted any differences. See Appendix B for additional
        information on the background, scope and methodology of our review.


        1
         SSA, Program Operations Manual System (POMS), General (GN) 02406.150 and .300 and Teleservice
        Center Operating Guide (TSCOG), Teleservice Chapter (TC) 25001.030 E.
Page 2 – The Commissioner

RESULTS OF REVIEW
We found that the controls over the OASDI replacement check process were not fully
effective in preventing the improper recording of DCNs and ensuring that SSA recovers
the correct amount of overpayments related to DCNs. Based on our review, we
estimate 1,146 beneficiaries had DCNs totaling $1,201,799 that were not properly
recorded on their PHUS records. Although inaccurate PHUS postings do not lead to
actual monetary losses for SSA, they affect the integrity of the data SSA staff can use to
determine whether a beneficiary has prior DCNs.

Overpayments related to DCNs are tracked for recovery by SSA’s ROAR system. We
compared our sample DCN-related overpayments from the PHUS to those recorded in
the ROAR. We found inaccurate overpayment amounts recorded in the ROAR and
estimate that 800 beneficiaries did not have $549,849 in DCN-related overpayments
correctly posted to their ROARs.

Our review also found that the Master Beneficiary Record (MBR) special messages
used to alert staff that beneficiaries had previous DCNs were often missing. In some
instances when the special messages were present, SSA inappropriately issued
replacement checks to beneficiaries prior to receiving confirmation from Treasury of the
status of the original checks.

ACCURACY OF PHUS RECORDS

For our 150 sample cases, we reviewed the PHUS to determine if SSA staff properly
annotated all DCNs. Our review identified more DCNs for these cases than were
recorded in the PHUS. Instead of the 620 DCNs expected based on our data extract,
we found the 150 sample cases actually had 639 DCNs.

While there is a net difference of 19 DCNs, the number of errors that occurred was
greater since we found some cases had too few DCNs recorded and some cases had
too many DCNs. Specifically, we found 79 DCNs, totaling $46,300, should have been
recorded, but were not. For example, one beneficiary had three DCNs on the PHUS
totaling $1,904. However, our analysis determined that the beneficiary actually had six
DCNs totaling $6,963. Based on the results of our analysis, we project that there was
an additional $641,740 that should have been recorded as DCNs.

Conversely, we found 60 DCNs totaling $39,717 had been recorded, but these DCNs
did not actually occur. For example, we determined that one beneficiary had two DCNs
of $991 and $1,003. However, the PHUS record for the beneficiary listed three DCNs
for $9,919, $991 and $1,003. Based on the results of our review, we estimate that
$560,059 was erroneously recorded as DCNs, even though DCNs had not occurred.

In total, we estimate that $1,201,799 of DCNs were improperly recorded on the PHUS.
See Appendix C for details of our sample results and projections.
Page 3 – The Commissioner

ACCURACY OF ROAR RECORDS

Once we independently calculated the DCN-related overpayments for our sample
cases, we compared our results to overpayment amounts recorded in the ROAR.
Through our review of 150 sample beneficiaries, we found that the ROAR contained
inaccurate overpayment postings. In 37 cases, the DCN-related overpayments
recorded in the ROAR were less than the amounts we identified. Specifically, the
ROAR did not include $28,796 of overpayments incurred by the 37 beneficiaries due to
DCNs. Based on these results, we project that 483 beneficiaries were overpaid
$346,551 more than was recorded.

Conversely, we found 25 beneficiaries’ amounts recorded in ROAR were higher than
the DCN amount we identified. The 25 beneficiaries had $17,127 recorded in excess of
the actual amounts overpaid. For example, we determined that a beneficiary had four
DCNs totaling $3,840. However, the beneficiary’s ROAR had DCN-related
overpayments totaling $4,800. Based on our sample results, we estimate that
317 beneficiaries’ overpayments were overstated by a total of $203,298.

In total, we estimate $549,849 of DCN-related overpayments were improperly recorded
in the ROAR. See Appendix C for details of our sample results and projections.

SPECIAL MESSAGES

SSA staff did not annotate the MBR with a special message for 105 of our 150 sample
cases, even though a special message was warranted. Under SSA’s current operating
procedures, these cases of misuse should have been documented with special
messages.

Of our 150 sample cases, 42 had special messages posted to their MBRs. However, in
each of these 42 cases, the special messages should have been recorded earlier.
Furthermore, 10 of these 42 cases involved beneficiaries who incurred DCNs after the
special messages were posted. For example, a beneficiary had DCNs in April and
July 2003 even though a special message was posted to his MBR in November 2002.
We concluded that the remaining 3 sample cases did not have DCNs, so no special
messages were needed.

CONCLUSION AND RECOMMENDATIONS
Based on our review, we believe opportunities exist for SSA to improve controls over
the OASDI replacement check process for beneficiaries who had previously negotiated
multiple monthly benefit checks. Specifically, SSA could more effectively record DCNs
that occurred and the special messages indicating past DCNs. The accurate recording
of DCN events by SSA staff is necessary to ensure the integrity of SSA’s data and the
proper collection of DCN-related overpayments.
Page 4 – The Commissioner

To help detect and prevent DCNs in the future, and ensure the recovery of DCN-related
overpayments, we recommend SSA ensures that its staff:

1. Correctly record all DCN events on the PHUS.

2. Correctly record all DCN-related overpayments on the ROAR and initiate appropriate
   overpayment collection activities.

3. Correctly annotate the MBR with special messages for all OASDI beneficiaries who
   negotiate both the original and replacement benefit checks.

4. Initiate replacement checks only after the status of the original check is confirmed
   when a special message indicates past misuse of the replacement check process in
   the prior 24 months.

AGENCY COMMENTS

The Agency agreed with our recommendations and has already initiated corrective
action. The Agency’s comments are included in Appendix D.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology
APPENDIX C – Sample Results and Projections
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
DCN        Double Check Negotiation
GN         General
MBR        Master Beneficiary Record
OASDI      Old-Age, Survivors, and Disability Insurance
OIG        Office of the Inspector General
OPSOS      Office of Public Service and Operations Support
PHUS       Payment History Update System
POMS       Program Operations Manual System
ROAR       Recovery of Overpayments Accounting and Reporting
SM         Systems and Methods
SSA        Social Security Administration
TC         Teleservice Chapter
Treasury   Department of the Treasury
TSCOG      Teleservice Center Operating Guide
                                                                             Appendix B

Background, Scope and Methodology
BACKGROUND
When a beneficiary or representative payee reports to SSA that he or she did not
receive an OASDI benefit check, a replacement check can be provided. Once reported,
SSA staff review Payment History Update System (PHUS) queries to determine if a
check was issued. Additionally, staff reviews the Master Beneficiary Record (MBR) to
determine whether a check was due and for the presence of a special message that the
beneficiary has a history of double check negotiation (DCN) within the past 24 months.1
If a special message is not present on the MBR, SSA staff should review queries to
determine whether the beneficiary is possibly misusing the replacement check process.
If SSA records indicate possible misuse, the employee should issue the replacement
check and initiate a review for a possible DCN. 2

Usually, when a beneficiary or a representative payee reports that a check has not been
received, a replacement check is issued before the status of the original check is
known. If the beneficiary had a confirmed DCN within the last 24 months, and the
beneficiary either claimed forgery unsuccessfully or did not make a forgery claim, SSA
should not issue a replacement check until the status of the original check is known.
The Department of the Treasury (Treasury) is responsible for determining the status of
the original check and notifying SSA of the results of its determination. 3

If a DCN has been confirmed by Treasury, SSA staff should record the overpayment on
the Recovery of Overpayments Accounting and Reporting (ROAR) system, send an
overpayment notice, and begin recovery of the overpaid amount. 4 The ROAR system
tracks the collection activity and recovery of overpayments. 5 Additionally, staff
annotates the PHUS to signify that a DCN has occurred. 6 When a DCN occurs, after
forgery has been ruled out, SSA staff should annotate the MBR with a special message
indicating the misuse of the replacement check process. The special message assists

1
 SSA, Program Operations Manual System (POMS), General (GN) 02406.150 and .300 and Teleservice
Center Operating Guide (TSCOG), Teleservice Chapter (TC) 25001.030 E. The cashing of both an
original and replacement check for the same month by the same beneficiary is referred to as a DCN.
2
    SSA, POMS, GN 02406.003 and TSCOG, TC 25001.020 and TC 030.
3
    SSA, POMS, GN 02406.002 and 003.
4
    SSA, POMS, GN 02406.300.
5
    SSA, POMS, Systems and Methods (SM) 00610.001.
6
    SSA, POMS, SM 00630.210 and GN 02406.300.


                                                B-1
SSA staff in the future if a beneficiary who previously abused the process makes a
request for a replacement check. The special message will indicate that a replacement
check should not be issued until after completion of an investigation of the status of the
original check by Treasury. 7 SSA’s current policy related to issuing a replacement
check when a special message indicates a prior DCN is the result of a settlement
agreement reached in 1997. 8

SCOPE AND METHODOLOGY
Our objective was to determine the effectiveness of the Social Security Administration’s
(SSA) controls over the Old-Age, Survivors, and Disability Insurance (OASDI)
replacement check process for beneficiaries who had previously negotiated multiple
monthly benefit checks. We obtained a nationwide data file of 8,497 beneficiaries with
2 or more duplicate-check events posted to the PHUS between October 2001 and
May 2004. From this population, we focused on beneficiaries who had three or more
DCNs recorded on the PHUS. To accomplish our objective we:

•     Researched relevant Program Operations Manual System (POMS) and Teleservice
      Center Operating Guide (TSCOG) procedures. Specifically, we researched POMS
      references General (GN) 02406.002, GN 02406.003, GN 02406.150 (A),
      GN 02406.300, GN 02604.405 and TSCOG references Teleservice Chapter (TC)
      25001.020 and TC 205001.030.

•     Performed a nationwide data extract of beneficiaries with two or more duplicate-
      check events (event “010”) posted to the Payment History Update System (PHUS)
      between October 2001 and May 2004. Separated the results of the extract into two
      simple random samples: those with three to four duplicate-check events; and those
      with five or more duplicate-check events. The first sample included only
      beneficiaries with three or four duplicate-check events recorded on the PHUS. Any
      beneficiaries with more than four duplicate check events were included in our
      second sample—beneficiaries with five or more duplicate-check events.




7
    SSA, POMS, GN 02406.150.
8
 SSA, POMS, GN 02406.002. In January 1997, co-defendants SSA and Treasury entered into a
settlement agreement with plaintiffs Robinson-Reyf on a class action suit filed in the State of New York.
Prior to the settlement, SSA would immediately replace checks when beneficiaries reported that they did
not receive their current month’s benefit check as long as there was no indication of a prior DCN. If there
was evidence of a prior DCN, SSA would wait for a confirmation from Treasury on the status of the
original check. The immediate replacement policy applied only to the current month’s benefit check.
SSA held the replacement check if the payment was nonrecurring or if it was for a payment for a prior
month. After the settlement, SSA no longer distinguished between current month checks and prior month
checks, or between recurring and nonrecurring payments, and agreed to release replacement checks
prior to the completion of any investigation of the status of the original check in most cases. An exception
was made if there was a confirmed DCN in the prior 24 months. In such cases, SSA would have
Treasury investigate the status of the original check before issuing a replacement check.


                                                    B-2
•   Selected a sample of 100 cases of the 1,742 beneficiaries with 3 to
    4 duplicate-check events and analyzed Recovery of Overpayments
    Accounting and Reporting (ROAR) system, Master Beneficiary Record (MBR)
    and PHUS records as of January 2005, to determine whether the DCNs were
    accurate, overpayment amounts were reflected correctly on the ROAR and special
    messages were correctly posted to the MBR. These 1,742 beneficiaries had
    5,652 DCNs totaling $2,975,936 in overpayments.

•   Selected a sample of 50 cases of the 333 beneficiaries with 5 or more
    duplicate-check events and analyzed ROAR, MBR and PHUS records, as of
    October 2004, to determine whether the DCNs were accurate, overpayment
    amounts were reflected correctly on the ROAR and special messages were correctly
    posted to the MBR. These 333 beneficiaries had 2,023 DCNs totaling $969,089 in
    overpayments.

Through our analysis, we identified the number of DCNs and corresponding
overpayments that occurred for each sampled beneficiary. We then compared the
overpayments identified on the PHUS to overpayments posted on the ROAR and noted
any differences. Additionally, we reviewed the MBR for special messages to indicate
past DCNs within the prior 24 months.

We provided the results of our analysis to staff in the Division of Operations Analysis
and Customer Service—a component of the Office of Public Service and Operations
Support (OPSOS)—which is under the Deputy Commissioner for Operations. We
discussed our results with the staff and reviewed a number of the conclusions reached.
Per this review process, we did not count replacement payments that were still under
Treasury review as DCNs. OPSOS staff agreed with our methods and the results of the
cases they reviewed.

We performed our audit in the New York Office of Audit between September 2004 and
March 2005. We found the data used for this audit were sufficiently reliable to meet our
objective. The entities audited were SSA’s Field Offices, Teleservice Centers and
Program Service Centers under the Deputy Commissioner for Operations. Our audit
was performed in accordance with generally accepted government auditing standards.




                                          B-3
                                                                Appendix C

Sample Results and Projections
                          Sample Results and Projections

                                       3 to 4 Double Check    5 or      Total
                                       Negotiations (DCN)    more
                                                             DCNs
  Population size (Beneficiaries)                   1,742        333      2,075
            Sample size                               100          50       150
                         Attribute Results and Projections
 Beneficiaries with unrecorded DCNs                    31         15         46
            Point estimate                           540         100        640
        Projection lower limit                       411          67
        Projection upper limit                       684         139

 Beneficiaries with DCNs recorded in                  21          21            42
                 error
            Point estimate                           366         140        506
         Projection lower limit                      255         103
         Projection upper limit                      499         179
Total beneficiaries with DCNs not
properly recorded on the PHUS                                             1,146

Beneficiaries with DCN overpayments                   22          15            37
         not posted to ROAR
            Point estimate                           383         100        483
        Projection lower limit                       271          67
        Projection upper limit                       518         139

Beneficiaries with DCN overpayments                   14          11            25
      recorded in error to ROAR
            Point estimate                           244          73        317
         Projection lower limit                      153          44
         Projection upper limit                      363         110
Total beneficiaries with DCNs not
properly posted to ROAR                                                     800



                                         C-1
                           Variable Results and Projections
Beneficiaries with Unrecorded DCNs                $30,983    $15,317                     $46,300
            Point estimate                       $539,729   $102,011                    $641,740
        Projection lower limit                   $332,906    $42,793
        Projection upper limit                   $746,552   $161,230

Beneficiaries with DCNs recorded in                           $27,467        $12,250     $39,717
                error
            Point estimate                                  $478,473         $81,586    $560,059
         Projection lower limit                             $172,966         $50,410
         Projection upper limit                             $783,979        $112,761
Total of DCNs not properly recorded
on the PHUS                                                                            $1,201,799

      Beneficiaries with DCN                                  $14,383        $14,413     $28,796
 overpayments not posted to ROAR
          Point estimate                                    $250,559         $95,992    $346,551
       Projection lower limit                               $156,173         $28,791
       Projection upper limit                               $344,944        $163,192

       Beneficiaries with DCN                                  $8,293         $8,834     $17,127
 overpayments recorded in error to
                 ROAR
            Point estimate                                  $144,464         $58,834    $203,298
         Projection lower limit                              $71,216         $28,798
         Projection upper limit                             $217,712         $88,869
Total of DCNs not properly posted to
ROAR                                                                                    $549,849
Note: All projections were calculated at the 90-percent confidence level.




                                                  C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      May 15, 2006                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Controls Over Old-Age, Survivors, and
           Disability Insurance Replacement Checks" (A-02-05-15080)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “CONTROLS OVER OLD-AGE, SURVIVORS, AND DISABILITY
INSURANCE REPLACEMENT CHECKS” (A-02-05-15080)

Thank you for the opportunity to review and provide comments on this draft report. Historically,
double check negotiation (DCN) has been a difficult issue. One of the difficulties is that there is
a lag period between the time a beneficiary/recipient alleges non-receipt and the time that it takes
the Department of Treasury (Treasury) to decide on a case, which is necessary for the Agency to
determine whether a true DCN exists.

The report indicates that the Payment History Update System (PHUS) did not match the results
in the Recovery of Overpayments Accounting and Reporting (ROAR). The information found in
the PHUS includes any and all DCNs on a beneficiary’s record, regardless of whether they are
true DCNs or not. The ROAR contains information about DCN overpayments that are true
DCNs. As only true DCNs will appear on the ROAR, comparing PHUS DCN data to ROAR
DCN overpayments is not likely to yield a match. Beneficiaries do not always cash both checks;
therefore, comparing the two sources (PHUS to ROAR) could falsely indicate that the Agency
may not be processing or pursuing overpayments for some DCNs.

To assist Agency representatives in the development of DCNs, a “DCN Process” desk guide was
prepared and released on January 31, 2006 (Administrative Message (AM) 06024-REV). The
desk guide includes background, best practices for processing and suggestions for DCN
prevention or deterrents. We believe this will be a valuable tool to assist employees in handling
DCN situations and reducing the number of duplicate payments being issued.

Recommendation 1

Correctly record all DCN events on the PHUS.

Comment

We agree. The Agency has already addressed this issue in special instructions to employees
(Emergency Message (EM)-03028 (effective March 24, 2003) and the DCN Process desk guide -
AM 06024-REV (released January 31, 2006)). The Agency also provided DCN training and a
non-receipt refresher course provided in December 2004. During the training, the language for
DCN abuse was explained in detail.

Recommendation 2

Correctly record all DCN-related overpayments on the ROAR and initiate appropriate
overpayment collection activities.




                                                D-2
Comment

We agree. The Agency has already addressed this issue through an automated action based on
the disposition of the replacement payment received from Treasury. At the Payment Service
Center, the actions are completely automated and require no manual intervention by an
employee.

Additionally, as stated for recommendation 1, SSA has already provided DCN non-receipt
refresher training.

Recommendation 3

Correctly annotate the Master Beneficiary Record (MBR) with special messages for all Old-Age,
Survivors, and Disability Insurance beneficiaries who negotiate both the original and
replacement benefit checks.

Comment

We agree. In February 2006, the Program Operations Manual System instruction
GN 02406.150 was updated to provide instructions regarding the language to place in the
Remarks and Special Message fields when DCN abuse is detected. Additionally, Transmittal
Number 3, effective November 2004, revised Teleservice Center operating procedure TC
25001.040 to include instructions to annotate DCN abuse in the Special Message field on the
MBR. Individual Regional Offices have also produced Program Circulars (BOS 04-016 GS,
effective May 14, 2004) to remind all TSC and FO employees to annotate the MBR with a
special message when handling a DCN case. Although we have issued reminders in the past, we
will continue to issue reminders via EMs, AMs and Program Circulars, as deemed necessary.

Recommendation 4

Initiate replacement checks only after the status of the original check is confirmed when a
special message indicates past misuse of the replacement check process in the prior 24 months.

Comment

We agree. As indicated in our response to recommendations 1 and 3, we have already instructed
employees to initiate replacement checks only when a true DCN is not on the record. Reminders
have already been issued and we will continue to issue reminders via EMs, AMs and Program
Circulars, as deemed necessary.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

   Christine Hauss, Program Analyst

   Robert Blake, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-05-15080.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
